No. _______

IN THE

Supreme Court of the United States
___________
LOUISIANA HEALTH SERVICE & INDEMNITY CO.,
doing business as BLUE CROSS AND BLUE SHIELD OF LOUISIANA,
Petitioner,
v.
ENCOMPASS OFFICE SOLUTIONS, INC.,
___________

Respondent.

Application for Extension of Time
to File a Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
___________
To the Honorable Samuel A. Alito, Jr., Associate Justice of the United States
Supreme Court and Circuit Justice for the United States Court of Appeals for the
Fifth Circuit:
Petitioner is Louisiana Health Service & Indemnity Company, d/b/a Blue Cross
and Blue Shield of Louisiana (“BCBSLA”), which insures or administers health
benefits plans for (among others) private employers. Petitioner intends to file a
petition for certiorari in connection with a decision recently issued by the U.S. Court
of Appeals for the Fifth Circuit. Pursuant to Supreme Court Rule 13.5, Petitioner
respectfully requests that the time for it to file a petition for a writ of certiorari be
extended thirty days, to and including August 14, 2019. A petition for certiorari is

currently due in this Court on July 15, 2019. This Application is being filed more
than ten days before that date.
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).
The judgment sought to be reviewed is Encompass Office Solutions, Inc. v.
Louisiana Health Service & Indemnity Co., d/b/a BlueCross BlueShield of
Louisiana, No. 17-10736 (5th Cir.), decided on March 19, 2019. Petitioner timely
sought panel and en banc rehearing, which was denied on April 16, 2019. A copy of
the opinion is attached (Appendix A), along with the order denying the petition for
panel and en banc rehearing (Appendix B). (Appendix C is a Corporate Disclosure
Statement.)
Good cause exits for granting this Application. The opinion for which review
will be sought involves a myriad of significant federal issues, including: (1) the scope
of a federal court’s authority to make a “guess” as to state law under Erie Railroad
Co. v. Tompkins, 304 U.S. 64 (1938), and (2) a medical provider’s standing to sue
under the Employee Retirement Income Security Act of 1974 (“ERISA”), 29 U.S.C.
§§ 1001 et seq., when the ERISA plan prohibits assignments of rights to medical
providers. Additionally, Petitioners’ Counsel of Record in this Court, Anthony F.
Shelley, has primary responsibility for the preparation of the petition for certiorari,
and the press of other recent work-related matters in which Counsel has primary
responsibility are such that, even with the assistance of other attorneys, he will not
reasonably be able to complete the work necessary to prepare the petition by the
present due date (July 15, 2019). These competing matters include: (1) a petition for

2

certiorari in connection with Depot v. Caring for Montanans, Inc., 915 F.3d 643 (9th
Cir. 2019) (U.S., appl. for ext. granted, No. 18A1247); (2) appellate briefing in Black
v. Pension Benefit Guaranty Corp., No. 19-1419 (6th Cir.); and (3) appellate briefing
in Jackson v. Spencer, No. 18-5180 (D.C. Cir.) (court-appointed amicus curiae for
Appellant). Finally, Counsel recently was out of the office for an extended period due
to a serious illness, which has hampered his ability to meet current deadlines.
Wherefore, Petitioner requests that an order be entered extending the time for
it to file a petition for a writ of certiorari to and including August 14, 2019.
June 25, 2019

Respectfully submitted,

Anthony F. Shelley
Laura G. Ferguson
Dawn E. Murphy-Johnson
MILLER & CHEVALIER CHARTERED
900 Sixteenth Street, NW
Washington, DC 20006
Tel.: (202) 626-5800
E-mail: ashelley@milchev.com
E-mail: lferguson@milchev.com
E-mail: dmurphyjohnson@milchev.com
Counsel for Petitioner Louisiana Health
Service & Indemnity Company, d/b / a Blue
Cross and Blue Shield of Louisiana

3

No. _______
IN THE

Supreme Court of the United States
___________
LOUISIANA HEALTH SERVICE & INDEMNITY CO.,
doing business as BLUECROSS BLUESHIELD OF LOUISIANA,
Petitioner,

v.

ENCOMPASS OFFICE SOLUTIONS, INC.,
___________

Respondent.

CERTIFICATE OF SERVICE
___________
I, Anthony F. Shelley, a member of the Bar of this Court, hereby certify that,
on June 25, 2019, I caused two (2) copies of the Application for Extension of
Time to File a Petition for a Writ of Certiorari to the United States Court
of Appeals for the Fifth Circuit to be served by first-class mail, postage prepaid,
on counsel of record for each party in the court below, as set forth below. I also
caused an electronic copy of the Application in PDF format to be served on them. I
further certify that all persons required to be served have been served.
Jonathan M. Herman
Herman Law Firm
Thanksgiving Tower
1601 Elm Street, Suite 2002
Dallas, TX 75201
Tel.: 214-624-9805
jherman@herman-lawfirm.com

Jennifer R. Ecklund
Thompson & Knight, L.L.P.
1 Arts Plaza
1722 Routh Street, Suite 1500
Dallas, TX 75201
Tel.: 214-969-1700
jennifer.ecklund@tklaw.com

Counsel for Louisiana Health Service &
Indemnity Company, d/b/a Blue Cross
and Blue Shield of Louisiana

Counsel for Encompass Office Solutions,
Inc.

Anthony F. Shelley
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel for Petitioner Louisiana Health
Service & Indemnity Company, d/b /a Blue
Cross and Blue Shield of Louisiana

